<html>
<title> - GOVERNMENT-WIDE INTELLIGENCE COMMUNITY MANAGEMENT REFORMS</title>
<body><pre>[Senate Hearing 110-431]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-431
 
       GOVERNMENT-WIDE INTELLIGENCE COMMUNITY MANAGEMENT REFORMS

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 29, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE

41-454 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
                Lisa Powell, Chief Investigative Counsel
             Jennifer A. Hemingway, Minority Staff Director
                Thomas Bishop, Minority Legislative Aide
                     Jessica Nagasako, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1

                               WITNESSES
                       Friday, February 29, 2008

Hon. David M. Walker, Comptroller General of the United States, 
  U.S. Government Accountability Office..........................     4
Marvin C. Ott, Professor, National Security Policy, National War 
  College, National Defense University...........................     6
Steven Aftergood, Director, Government Secrecy Project, 
  Federation of American Scientists..............................     8
Frederick M. Kaiser, Specialist in American National Government, 
  Government and Finance Division, Congressional Research Service     9
Ronald A. Marks, Senior Vice President for Government Relations, 
  Oxford Analytica, Inc..........................................    11

                     Alphabetical List of Witnesses

Aftergood, Steven:
    Testimony....................................................     8
    Prepared statement...........................................    58
Kaiser, Frederick M.:
    Testimony....................................................     9
    Prepared statement...........................................    65
Marks, Ronald A.:
    Testimony....................................................    11
Ott, Marvin C.:
    Testimony....................................................     6
    Prepared statement...........................................    54
Walker, Hon. David M.:
    Testimony....................................................     4
    Prepared statement...........................................    29

                                APPENDIX

CRS Report entitled ``Congressional Oversight of Intelligence: 
  Current Structure and Alternatives,'' February 11, 2008, 
  submitted for the Record by Mr. Kaiser.........................    71
CRS Report entitled ``Security Classified and Controlled 
  Information: History, Status, and Emerging Management Issues,'' 
  February 11, 2008, submitted for the Record by Mr. Kaiser......    99
Background.......................................................   135
Post-Hearing Questions for the Record Submitted to the Hon. Slade 
  Gorton from Senator Daniel K. Akaka, January 9, 2007...........   143
Post-Hearing Questions for the Record Submitted to the Hon. Lee 
  H. Hamilton from Senator Daniel K. Akaka, January 9, 2007......   145
Letter to Senator Akaka from Lee H. Hamilton, dated January 24, 
  2007...........................................................   147
Letter from Mr. Walker to Senator Akaka, dated March 11, 2008, in 
  response to a question at the hearing..........................   148
Letter from Mr. Walker to Senator Akaka, dated April 25, 2008, in 
  response to questions at the hearing...........................   149


       GOVERNMENT-WIDE INTELLIGENCE COMMUNITY MANAGEMENT REFORMS

                              ----------                              


                       FRIDAY, FEBRUARY 29, 2008

                                   U.S. Senate,    
                Subcommittee on Oversight of Government    
                       Management, the Federal Workforce,  
                              and the District of Columbia,
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    Today's hearing--Government-wide Intelligence Community 
Management Reforms--will examine how to improve oversight of 
the Intelligence Community (IC) as it implements extensive 
government-wide management reforms.
    Intelligence failures before the attacks of September 11, 
2001, spurred the largest restructuring of the Intelligence 
Community since it was established. The Intelligence Reform and 
Terrorism Prevention Act of 2004 created a new position--the 
Director of National Intelligence--to serve as the head of the 
Intelligence Community and principal advisor to the President 
on intelligence matters related to national security.
    The Intelligence Reform Act provides the DNI with 
centralized authorities significantly more extensive than those 
formerly held by the Director of Central Intelligence. The 
Director of National Intelligence oversees and coordinates the 
intelligence activities of the other members of the IC, which 
include 16 other components spread throughout much of the 
Executive Branch.
    Acting on these authorities, the DNI has proposed a host of 
management reforms, including changes in IC personnel policies, 
acquisitions, information sharing, and business practices. Such 
management reforms would create serious transformational 
challenges in any organization. The Intelligence Community, 
with its new, but still decentralized structure, led by a new 
director with new authorities, faces a daunting task in 
carrying out these management reforms. While what the DNI is 
proposing may be new for the Intelligence Community, it is not 
new for the rest of the Federal Government. Many of the issues 
being confronted and the solutions posed are ones other Federal 
agencies have managed already.
    So it is my strong belief that the Intelligence Community 
could benefit from the Government Accountability Office's 
expertise in reviewing organizational transformations and 
management reforms. My view is shared by others, including 
Representative Lee Hamilton, who was Vice Chairman of the 9/11 
Commission, and Senator Slade Gorton, also a member of the 9/11 
Commission. In response to my questions for the record of a 
January 2007 Senate Homeland Security and Governmental Affair 
Committee hearing on implementing the 9/11 Commission's 
recommendations, both stated that GAO should have the same 
authorities with respect to the Intelligence Community as it 
does with other Federal Government agencies.\1\ I will place 
these responses as well as a letter from Representative 
Hamilton addressing the issue into the record.\2\
---------------------------------------------------------------------------
    \1\ The post-hearing questions for the Record submitted to the Hon. 
Slade Gorton and Hon. Lee Hamilton at the January 9, 2007 hearing from 
Senator Akaka, appear in the Appendix on pages 143 and 145 
respectively.
    \2\ The letter from Lee H. Hamilton to Senator Akaka, dated January 
24, 2007 appears in the Appendix on page 147.
---------------------------------------------------------------------------
    Senator Akaka. I am disappointed that despite GAO's 
government-wide mandate to assist Congress in reviews, audits, 
and investigations, the DNI and the CIA so far have resisted 
taking advantage of GAO's assistance in the transformation of 
their business practices.
    The IC's cooperation with GAO is not simply a matter of 
making Congress' oversight job easier; it is a matter of making 
the IC's management reforms smoother, more effective, and more 
efficient. GAO has expertise in virtually all of the bread-and-
butter management challenges that the Intelligence Community is 
confronting.
    For example, GAO has done extensive work on how to fix the 
security clearance process, which is on GAO's high-risk list. 
Fixing the long delays in the process is an important national 
security priority. In response to a question for the record 
from Senator Voinovich from a November 2005 hearing of this 
Subcommittee on improving the process, GAO stated that it 
lacked the cooperation needed to ensure progress on this 
critical issue.
    Similarly, GAO has done numerous evaluations of government 
information sharing, and it has provided valuable 
recommendations on improving information-sharing processes. 
Nonetheless, DNI refused to comment on GAO's March 2006 report 
on government sharing of sensitive but unclassified information 
because of its narrow view of GAO's authority.
    Moreover, GAO has been a key advisor to Congress in its 
oversight of the development of new personnel systems at the 
Departments of Defense and Homeland Security. Given the fact 
that there are no union representatives to highlight employee 
concerns or implementation problems with the proposed IC 
personnel reforms, it is essential that Congress have an 
independent expert to review how such proposals are working.
    Congress and the Intelligence Community could benefit from 
GAO's expertise on all of these topics, as well as from GAO's 
capacity to do crosscutting, government-wide evaluations in its 
institutional and political independence.
    In September 2006, I introduced the Intelligence Community 
Audit Act, which I reintroduced in the 110th Congress as S. 82. 
This bill would reaffirm GAO's existing authority to perform 
audits and evaluations of Intelligence Community financial 
transactions, programs, and activities, and to obtain the 
documents needed to do so. At the same time, the bill contains 
provisions to enhance the protection of classified information, 
including restricting GAO work and dissemination of GAO reports 
related to covert actions and intelligence sources and methods, 
and affirming that GAO staff would be subject to the same 
penalties for unauthorized disclosure of classified information 
as IC employees.
    The Intelligence Community is proposing far-reaching 
transformational policies. It clearly could benefit from 
independent analysis and sufficient congressional oversight. 
But the response of the DNI to Congress is, in effect, ``Trust 
us, we know what we are doing.'' Unfortunately, history 
provides numerous examples of intelligence failures that became 
evident only after it was too late to correct them. The stakes 
are too high to operate just on trust.
    Congress must redouble its efforts--that is what we are 
trying to do--to ensure that U.S. intelligence activities are 
conducted efficiently, effectively, and with due respect for 
the civil rights and civil liberties of Americans, and I will 
work to see that it does.
    I look forward to hearing from our witnesses on their 
perspectives of how Congress can improve oversight of the 
Intelligence Community, in particular the role of the GAO. I 
want to thank our witnesses for being here today to discuss 
this very important issue.
    I want to thank David Walker for nearly a decade of service 
as the Comptroller General as he prepares to transition to 
become the President and Chief Executive Officer of the newly 
established Peter G. Peterson Foundation. Mr. Walker, it has 
been my pleasure to work closely with you over the years, and I 
cherish those memories. I wish you well in your new endeavor. I 
hope that your replacement will be someone who is equally 
capable and equally dedicated in his or her service to GAO and 
to Congress and especially to the people of these United 
States.
    And so I want to welcome, again, all the witnesses to this 
Subcommittee hearing. David Walker, Comptroller General of the 
United States with the Government Accountability Office.
    Marvin Ott, who is a professor of national security policy 
at the National War College of the National Defense University. 
Professor Ott also worked as a CIA analyst and as Deputy Staff 
Director of the Senate Select Committee on Intelligence under 
Senator Murkowski, among numerous other positions.
    Steven Aftergood, Director of the Government Secrecy 
Project at the Federation of American Scientists. Mr. Aftergood 
has won numerous awards for his work combating secrecy, 
including the James Madison Award from the American Library 
Association.
    Frederick Kaiser, specialist in American National 
Government, at the Congressional Research Service. Mr. Kaiser 
has worked at CRS for more than 30 years and has taught at 
American University and the University of Maryland as well.
    Finally, Ronald Marks, Senior Vice President for Government 
Relations at Oxford Analytica, Founder and Director of the Open 
Source Intelligence Forum and Adjunct Professor for 
Intelligence and National Security at the National Defense 
University. Mr. Marks formerly served as a senior CIA official 
and as intelligence counsel to former U.S. Senators Bob Dole 
and Trent Lott.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, and I would ask all of you to stand and raise 
your right hand. Do you solemnly swear that your testimony you 
are about to give this Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Walker. I do.
    Mr. Ott. I do.
    Mr. Kaiser. I do.
    Mr. Aftergood. I do.
    Mr. Marks. I do.
    Senator Akaka. Thank you. Let the record indicate that our 
witnesses answered in the affirmative.
    I want our witnesses to know that while your oral 
statements are limited to 5 minutes, your entire statements 
will be included in the record.
    Mr. Walker, please proceed with your statement.

 TESTIMONY OF HON. DAVID M. WALKER,\1\ COMPTROLLER GENERAL OF 
    THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. Thank you, Chairman Akaka. Thank you very much 
for your kind comments in your introductory remarks. Let me 
note that while I have several other hearings scheduled during 
the balance of my 2 weeks as Comptroller General, I believe 
that this will be my last hearing before this Subcommittee, 
unless something changes. And I just want to let you know that 
it has been an honor and a pleasure to work with you, with 
Senator Voinovich and with the other Members of this 
Subcommittee. And I take great pride in knowing that working 
together in partnership we made a big difference.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walker appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    I also want to let you know that while I am changing my 
position on the battlefield, I am not leaving the fight. And, 
in fact, as CEO of the Peter G. Peterson Foundation, I will 
have more flexibility and more discretionary financial 
resources to bring on the target--namely, the need to address 
our sustainability challenges and government transformation 
needs. So I look forward to continue to work with you, although 
in a different capacity.
    With regard to today's hearing, I am pleased to be here in 
order to be able to address how GAO could assist the Congress 
and the Intelligence Community in connection with management 
reform initiatives. As you know, Mr. Chairman, GAO has assisted 
the Congress for decades in its oversight role, and we have 
helped a variety of government departments and agencies with 
very disparate missions to improve their economy, efficiency, 
effectiveness, ethics, and equity. In addition, GAO's work has 
also provided very valuable insight as to which type of 
programs, functions, and activities work and which ones do not, 
and also foresight as to what some of the current emerging 
trends and challenges are facing the United States and its 
position in the world.
    There are a number of government-wide management 
transformation challenges that are on our high-risk list, and 
you are very familiar with that high-risk list, including such 
items as human capital transformation, acquisition, 
contracting, information technology, strategic planning, 
organizational alignment, personnel security clearances, and 
information sharing. Many of these issues affect a vast 
majority of Federal agencies, including the Intelligence 
Community. And I think it is important that I am here today to 
talk about management reforms, not sources and methods. That is 
a different issue. But there are basic management challenges 
that every Federal entity faces, including the Intelligence 
Community.
    Second, if the ODNI assumes management of government-wide 
personnel security clearances, then GAO's ability to continue 
to review personnel security clearances could be impaired 
unless greater cooperation is forthcoming from the Intelligence 
Community.
    Now, let me stop here to note that I met personally with 
the Director of National Intelligence on more than one 
occasion, and he is a very capable individual, and he seems to 
be very reasoned and very reasonable, and so our relations are 
improving. And it is not a personal issue here. Frankly, this 
is an issue that goes back many years based upon access 
challenges, based upon an opinion from the Justice Department 
that has been there for a number of decades. So this is not 
something that is new. It has been longstanding. And my 
experience with the director has been positive, as well as some 
of his key staff.
    And as I say, we have developed and maintain a relatively 
positive working relationship, which has improved in recent 
times. But because of this past legal opinion, and because of 
positions taken by some key players historically in the 
Intelligence Community, we generally have done little to no 
work in the Intelligence Community, because as you know, Mr. 
Chairman, we already have a huge supply and demand imbalance. 
We have way more requests for GAO to do work than we have 
resources to do it. And in the absence of receiving requests to 
do the work, then we are not going to use our limited 
discretionary resources to do work in this community when 
Congress is not asking us to do the work.
    Third, with the support of the Congress and your 
legislation, S. 82, GAO would be well positioned to provide the 
Intelligence Community, as well as the appropriate 
congressional committees, with an independent, fact-based view 
and evaluation of Intelligence Community management reforms. As 
you noted in your opening statement, GAO has significant 
expertise with regard to a broad range of management issues. We 
have knowledge of best practices as well as lessons learned. 
And we have, during my tenure, tried to lead by example with 
regard to a lot of these reforms and really increase the amount 
of time and effort that we are spending on them to help benefit 
others in a constructive way, not in a confrontational or 
traditional audit role way.
    We support your bill and believe that if it was enacted, 
GAO would be well positioned to assist the Congress in its 
oversight functions and that we, frankly, could help the 
Intelligence Community, too. Ironically, our number one 
competition for talent is the Intelligence Community. We win, 
fortunately, on most college campuses, but they do a good job, 
too. And the fact is that we are both hiring, in large part, 
highly educated, committed individuals to do analytical work. 
That is what we do at GAO, and to a great extent, that is what 
the Intelligence Community does. So in many ways, our own 
experience at GAO frankly is very applicable to a lot of the 
challenges, I think, that the Intelligence Community faces.
    You also have certain affirmation or reaffirmation 
provisions in the bill that should help to ensure that GAO's 
audit and access authorities are not misconstrued in the 
future, and should responsibility for personnel security 
clearances be transferred to the Director of National 
Intelligence, to make it clear that we should continue to 
receive access to that type of information in order to 
discharge our responsibilities to the Congress and the American 
people.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Mr. Walker. Mr. Ott.

  TESTIMONY OF MARVIN C. OTT,\1\ PROFESSOR, NATIONAL SECURITY 
   POLICY, NATIONAL WAR COLLEGE, NATIONAL DEFENSE UNIVERSITY

    Mr. Ott. Mr. Chairman, thank you for the opportunity to 
appear before this Committee on a matter that is of real and 
concrete importance to U.S. national security. My testimony 
submitted for the record is brief. My summary comments I will 
try to make informal and briefer still.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ott appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    Let me begin with two, I think, fairly obvious 
propositions, the first of those being that high-quality 
intelligence is increasingly critical to the national security 
of the United States. One way to think about that is to look at 
the nature of the threats we face and to contrast them with 
those of the Cold War period when the Soviet threat was 
military. I think it is fair to say that in a world 
characterized by an al-Qaeda type of threat, diversifying 
networks of terrorist groups, not to mention proliferation 
issues, pandemic issues, and other systemic threats--these are 
issues that naturally fit the intelligence world in many ways 
much more exactly than they fit the traditional, conventional 
military world. So, increasingly, the point of the spear, to 
borrow a much overused metaphor, for U.S. national security 
really does reside now in the intelligence world.
    Second, effective oversight of the intelligence process is, 
in fact, critical. People at the top of the intelligence 
business who have been around and are experienced and have 
judgment on these matters know that effective oversight is 
critical. It is a force enabler. It is a corrective. It serves 
as an advocate and a shield. In a whole variety of ways, it is 
not an adversary to effective intelligence. It, in fact, is an 
important support.
    With regard to this, then, the question of how effectively 
the Congress--and I am focusing particularly on the Senate--has 
conducted intelligence oversight is very relevant. Now, here a 
little background is necessary. Mr. Chairman, you cited the 
fact that Senator John Glenn, introduced a bill in 1987, S. 
1458, that sought to do exactly the kind of thing you are 
talking about today.
    And that bill was not accepted, and I think the principal 
argument at the time--and I had a ringside seat, as it were--
was that in the 1980s, when Senator Glenn introduced that bill, 
the Senate Select Committee on Intelligence had, in fact, 
become a very effective vehicle for oversight. This was not 
easy. The match between the open, democratic, public processes 
of a democratic legislative body, on the one hand, and the 
secretive, closed, need-to-know world of intelligence--that is 
an oil-and-water kind of match. And to make that process work, 
to bring oil and water together, to have effective oversight 
that is constructive and works in the secret world of 
intelligence is a very hard thing to do.
    I would argue that probably no country in the world has 
done it except this country, and we did it in the 1980s, and I 
can go into some detail regarding the process that made it 
work.
    But suffice it to say, when Senator Glenn introduced his 
bill at that time, the argument was we are doing effective 
oversight, not only through the oversight committee, but we are 
establishing a statutory IG at the CIA, and we have reason to 
believe that is going to be an effective vehicle. So the 
argument was we have this problem under control. But things 
have changed since 1987, and I will just tick off the major 
points and leave it at that at this point.
    First of all, the quality and the effectiveness of the 
oversight process I have just referred to, deteriorated, 
degraded, and basically disappeared in the 1990s and into the 
early part of this decade. It is one of the great tragedies of 
the legislative history of the United States, in my judgment.
    Second, the community that is being overseen has grown in 
complexity, diversity, and in size. For example, the office of 
the DNI, which did not exist in 1987, has become a major 
bureaucracy. I have in my testimony that it comprises of 1,600 
people. I believe that is, in fact, conservative. It is 
probably closer to 2,000. Nobody, including Director McConnell, 
knows what is going on inside all the different components of 
the current Intelligence Community.
    Moreover, there is a statutory IG at the CIA, but nowhere 
else in the community. Everybody else, pretty much, is under 
the DOD IG. That DOD IG has got lots of other things to do on 
the military procurement side, on the defense side. He is a 
marginal player when it comes to intelligence oversight.
    Finally, the diversity and nature of the threats we face--
and I alluded to that at the outset--has multiplied.
    Bottom line, there is, in my judgment, currently a 
mismatch, a serious mismatch, between the capabilities to 
conduct oversight and the vehicles and the instrumentalities 
for that, on the one hand, and the nature of the Intelligence 
Community and the nature of the threats, on the other. And GAO 
is an important potential asset in correcting that mismatch.
    Senator Akaka. Thank you very much, Mr. Ott. Mr. Aftergood.

TESTIMONY OF STEVEN AFTERGOOD,\1\ DIRECTOR, GOVERNMENT SECRECY 
           PROJECT, FEDERATION OF AMERICAN SCIENTISTS

    Mr. Aftergood. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Because of the very importance and the 
sensitivity of the intelligence enterprise, intelligence 
oversight is a critical function. The public relies on the 
oversight system to ensure that intelligence activities are 
conducted in conformance with law, efficiently and effectively. 
But the task of intelligence oversight has become significantly 
more difficult in recent years for at least two reasons. One is 
the enormous growth in the size of the intelligence budget. Ten 
years ago, the National Intelligence Program was spending on 
the order of $20 billion a year. Last year, the DNI disclosed 
the National Intelligence Program budget reached $43.5 billion. 
So intelligence spending on national intelligence has more than 
doubled. Intelligence oversight capacity has not doubled. It 
has not kept pace.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aftergood appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    A second complicating factor is the rise in reliance on 
intelligence contractors. According to an ODNI account that I 
cite in my written statement, the spending on intelligence 
contractors has also doubled from 1996 to 2006. There are 
literally thousands of new contractual relationships between 
intelligence agencies and commercial entities that the 
intelligence oversight system is poorly equipped to regulate, 
oversee, or even verify that they are doing what they are 
supposed to be doing.
    For these reasons alone, I think that the government ought 
to be summoning all the tools at its disposal to carry out the 
task of intelligence oversight, and that certainly includes the 
Government Accountability Office. I do not think the GAO can 
solve the oversight challenge all by itself. To do that it 
might take an organization the size of the GAO devoted entirely 
to the Intelligence Community, and that does not seem to be a 
realistic option. But certainly GAO can make a tangible 
contribution as it does in almost every other area of 
government oversight.
    A couple other quick points. When GAO is excluded from 
intelligence oversight, not only does Congress miss the 
benefits of their contribution, but carving out the 
Intelligence Community actually damages GAO's role in other 
ways. When GAO does a study of government-wide activities, say, 
on information sharing or on personnel security, it has to, in 
effect, come with an asterisk saying this work does not include 
the activity of the intelligence agencies. And there is no 
reason for that to be the case. Not only are we not taking 
maximum advantage of GAO, we are actually tying their hands and 
reducing the utility of their product.
    I would also note that the DNI, the CIA, and others in the 
Intelligence Community have expressed opposition to your 
legislation, saying that they do not want GAO to get involved. 
And I would say that while that may be off-putting at first 
glance, at second glance it is actually a good sign. I would 
say that if the Intelligence Community did not object to your 
proposal, that would be perplexing. No one voluntarily seeks 
out oversight. No one looks for somebody to look over their 
shoulder to see how they are doing. So if ODNI said, ``Oh, come 
on, that is fine,'' then I would wonder what is wrong with this 
legislation. Why aren't they objecting? The fact that they are 
objecting says that this legislation embodies meaningful 
change, and I would just urge you and the Subcommittee and the 
Senate not to be deterred by any such opposition. If you are 
persuaded, as I am, that a GAO role in intelligence oversight 
is a good one, then by all means you should pursue it.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Aftergood. Mr. Kaiser.

  TESTIMONY OF FREDERICK M. KAISER,\1\ SPECIALIST IN AMERICAN 
     NATIONAL GOVERNMENT, GOVERNMENT AND FINANCE DIVISION, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Kaiser. Thank you, Mr. Chairman. I thank you and Mr. 
Voinovich and Members of the Subcommittee for inviting me to 
participate in this hearing on government-wide Intelligence 
Community reforms, and with special attention to oversight of 
intelligence in this evolving field. The Intelligence Community 
rubric is formally applied to the 16 agencies, as you had 
mentioned earlier, but there is still another Intelligence 
Community that might be worth considering. And that is the 
Homeland Security Intelligence Community (HSIC). It is a much 
more nebulous and non-statutory organization, but, nonetheless, 
there is a collective set of intelligence operations and 
organizations that play a role, especially in your 
Subcommittee's jurisdiction. Both of these communities require 
a substantial amount of interagency cooperation and 
coordination to provide for a sharing of relevant and timely 
information as well as to engage in multi-agency activities and 
operations. Ideally, this second or HSIC can overcome the 
foreign-domestic divide that, according to the 9/11 Commission, 
hampered effective intelligence gathering, evaluation, and 
dissemination.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kaiser appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    The homeland security Intelligence Community also requires 
coordination and cooperation with State, local, and tribal 
organizations, so it has a wider and a different kind of 
jurisdiction.
    Oversight of intelligence, as we already heard and as you 
well know, has always been a daunting challenge to Congress. 
And it seems to be increasingly so, because of the increase of 
classified national security information and new categories of 
controlled information, such as sensitive but not classified 
information. And this affects a range of activities here on the 
Hill that limit congressional oversight. It even means that 
committees cannot cooperate with one another, that there are 
barriers put in between sharing information from one member to 
another because of the restrictions that are placed on 
receiving and responding to classified information.
    National security concerns also affect other oversight 
capabilities. Importantly, certain offices of Inspector General 
are affected by this. The heads of six or seven departments and 
agencies can prohibit or prevent an IG audit or investigation, 
and those are largely in the Intelligence Community. The 
reasons for this prohibition, though, have to be communicated 
to your Subcommittee as well as the authorizing committees. So 
it does give your Subcommittee a handle on what has developed 
or why an audit has not occurred by the Office of Inspector 
General. That applies to all the entities that I mentioned 
except for the CIA, which reports directly then to the House 
and Senate Intelligence Committees.
    Oversight of intelligence has been consolidated in these 
select committees, but they do not hold exclusive oversight 
jurisdiction. In fact, importantly, the establishing resolution 
of the House and Senate select committees repeat the same 
language: ``Nothing in this resolution shall be construed as 
prohibiting or otherwise restricting the authority of any other 
committee to study and review any intelligence activity to the 
extent that such activity directly affects a matter otherwise 
within the jurisdiction of that committee.''
    Examples of such oversight extend to, again, your 
Subcommittee in the past. In the mid-1980s, the Permanent 
Subcommittee on Investigations looked into the Federal 
Government security clearance program. Later on, Congress 
commissioned a review of the Intelligence Community workforce 
that was conducted by the National Academy of Public 
Administration. And in July 2001, two Subcommittees of your 
counterpart at the time, the House Committee on Government 
Reform, now Oversight and Government Reform, reviewed computer 
security programs across the board. It relied on a GAO survey 
that had been conducted earlier, and only one agency was a 
holdout. That was the Central Intelligence Agency. It declined 
to participate in the hearings or in the earlier GAO survey.
    This is an illustration of the difficulties that GAO has 
had in providing comprehensive oversight of the Intelligence 
Community. The CIA has taken this position that it is, in 
effect, off limits. Your bill would go far to remove that 
characteristic that the CIA has adopted for itself.
    I might mention in conclusion here that other entities 
within the Intelligence Community do not take that same stand. 
The Department of Defense, which houses the largest number of 
IC units, for instance, instructs its personnel to ``cooperate 
fully with the GAO and respond constructively to, and take 
appropriate corrective action on the basis of, GAO reports.'' 
And so there is this distinction.
    I might mention, too, as Mr. Ott has said, that in 1987 
Senator Glenn from this Subcommittee had introduced legislation 
along the lines of your bill. An earlier proposal goes back to 
the mid-1970s, when the Comptroller General then, Elmer Staats, 
first raised this notion formally before a couple of Select 
Committees on Intelligence in the House and the Senate. Those 
two committees, the Pike and Church committees, also approached 
this subject and advanced proposals to increase GAO's 
independent audit capabilities.
    My prepared remarks go into detail on other types of 
changes that Congress might consider in improving oversight of 
intelligence.
    Senator Akaka. Thank you very much, Mr. Kaiser, for your 
statement.
    Mr. Marks, I understand that you do not have a prepared 
statement to deliver, but I would ask you, if you have any 
remarks you would like to make, you may make them at this time.

    TESTIMONY OF RONALD A. MARKS, SENIOR VICE PRESIDENT FOR 
          GOVERNMENT RELATIONS, OXFORD ANALYTICA, INC.

    Mr. Marks. Thank you, Senator. The last one should always 
be shortest, if at all possible. It is an honor to be here, 
especially on something I have considered so strongly over the 
years, dealt with this issue on and off during my years at CIA, 
probably now 15, almost 20 years. As I was telling my wife this 
morning, I may not be an intelligence expert, but I live there, 
so I think I have a pretty good idea of what is going on.
    The Intelligence Community always views itself in terms of 
a culture of secrecy, as it should, but that secrecy also 
produces a certain amount of belief of uniqueness. And in my 
days at CIA--and I spent some 16 years there--five of them were 
in Congressional Affairs, two of them were up here as 
intelligence counsel to Robert Dole and Trent Lott. And 
throughout that entire process, anytime someone mentioned GAO, 
I could hear the management on the seventh floor of the Central 
Intelligence Agency cringing, believing that they already had 
sufficient oversight from both the Senate and the House 
Intelligence Committees.
    I did not necessarily want to argue with them at that time, 
but I knew of the work that GAO did, and it seemed as though it 
would be a good idea to introduce it. But low-level officers do 
not make those kinds of recommendations at the time. The 
problem I see now in particular, now that I am 10 years outside 
of the process but still acting as an advisor to the community, 
is that they have grown so large, so complex, so quickly, that 
really the problems are well beyond them now. Someone mentioned 
the contractual problems here before. That is unique to many 
parts of the community in terms of buying outside contractors, 
not only to do analytical work for them or other types of 
engineering work, but actually having people on site, 
particularly the Central Intelligence Agency, where that is 
rather unique.
    Workforce planning. The size of the Intelligence Community 
has grown hand over fist since 2001, some estimates 40 percent, 
some estimates 50 percent, but whatever, there is no real plan 
in place at this point for helping these young people and 
directing them through their career within the community and 
hanging onto them. As someone in the private sector, I can tell 
you from my own experience at this point that unless you lay 
out a plan for your young people so that they can grow within 
your organization, you are going to lose them fairly quickly. 
And this is a group of young people now who are much less 
patient, perhaps, than I was back in the 1980s.
    I am particularly concerned on the issue of security and 
compartmentation. This has been going on for a long period of 
time, really since the fall of the Berlin Wall, the end of the 
Cold War. We are still working in many ways with a system that 
was dealing with a very large Nation State, our opponent, the 
U.S.S.R., who believed in compartmentation, who believed in 
security, keeping control over their people. We live in a 
different age. The open source information contained around the 
world on the Internet alone is so many times the size, I do not 
think anybody knows what that all is. Yet we still have a 
system inside that does not allow those people who are 
analysts, those people who are operatives to really use that 
system because it is considered a security threat by virtue of 
even asking the question. They are hamstringing themselves, 
they are hamstringing our national security, and I think these 
are a number of issues that the GAO could help them address 
because, frankly, the oversight committee process, the IG 
process at this point will always be viewed as somewhat biased, 
fair or unfair. But GAO has established itself over the years 
as a neutral outside organization, and I think it can provide 
the DNI some real insight into what it is that they are doing 
for these vast processes that are overseeing the community.
    On that note, thank you, Senator. I will end my comments.
    Senator Akaka. Thank you. Thank you very much, Mr. Marks, 
for your comments.
    As you know, I have introduced the Intelligence Community 
Audit Act of 2007, S. 82, which would reaffirm GAO's authority 
to perform audits and evaluations of financial transactions, 
programs, and activities of elements of the Intelligence 
Community. The bill also includes certain provisions to improve 
protection of the most sensitive intelligence information. For 
example, specifying that the House or Senate Intelligence 
Committees or Majority or Minority Leader would have to request 
any audit or evaluation of intelligence sources and methods or 
covert actions.
    Do these provisions adequately address the DNI's concerns 
with protecting the most sensitive intelligence information? Or 
are there other steps that should be taken? Comptroller General 
Walker.
    Mr. Walker. Thank you, Mr. Chairman. First, I see a clear 
distinction between management issues and management reforms 
that apply to virtually every government department and agency, 
including the Intelligence Community sources and methods. Those 
are fundamentally different, and obviously the need to try to 
be able to provide additional restrictions and safeguards 
dealing with that type of information is clear; it is 
compelling.
    Sometimes there can be a gray area where you are dealing 
with management type issues that could touch on some of these 
other issues. I think you have to keep that in mind.
    I think that what you have done is to try to separate 
between typical management type activities and sources and 
methods. I will, in the interest of full and fair disclosure, 
note that as a member of the Board of Directors of the 
International Auditor Generals Organization, as head of 
strategic planning for that group, one of the things I have put 
to my colleagues is to what extent do they do audit and 
evaluation work in the Intelligence Community, and who do they 
do it for, and who has access to information.
    For all the major industrialized nations, they said yes, 
the counterpart GAO organization does do work, audit and 
evaluation work, in the Intelligence Community. However, a 
significant majority of them also said that they typically only 
do it at the request of their intelligence committees and that 
the information is typically only provided to their 
intelligence committees.
    I am not saying that is the right answer, but I feel 
compelled to provide the information just for your 
consideration.
    Senator Akaka. Mr. Ott.
    Mr. Ott. Just very briefly, Mr. Chairman, I guess my quick 
reaction is the kind of carve-out that you have identified in 
the legislation makes perfect sense, and I am also inclined to 
say there is a bit of a false dispute here in the sense that, 
as Mr. Aftergood and Mr. Marks in particular correctly 
identified, there are huge requirement for effective oversight 
of management, audit, financial, and contractual activities--
all these kinds of requirements for effective oversight. GAO 
will have more than enough to do if they are given authority to 
go into those areas. I frankly do not see any reason why there 
should be any particular demand to go into the narrow and 
highly sort of compartmented area of covert action and sources 
and methods. That strikes me as the logical place for the 
intelligence committees to work.
    So it would seem to me that this is, as Mr. Walker has 
said, a pretty natural division of labor, and to some degree a 
kind of false problem. It seems to me something that can be 
worked fairly effectively.
    Senator Akaka. Mr. Aftergood.
    Mr. Aftergood. I think the distinction in the bill does 
make sense, but if your question is will it satisfy the 
objections of the DNI, I am afraid the answer is no, it will 
not. And the reason for that is because the Intelligence 
Community uses the term ``sources and methods'' with great 
elasticity.
    I obtained a document showing the CIA budget for 1963. It 
was a declassified document showing that the budget was $500 
million that year. I asked the CIA, ``Well, what was the budget 
for 1964?'' And they said, ``Oh, we are not going to tell you 
that because of intelligence sources and methods.''
    And so basically it is a catch-all phrase for whatever they 
do not want to disclose. They do not use it in the same way 
that you and I might.
    I would say, though, that addressing the ODNI's concerns 
may not be the hardest challenge facing this legislation. 
Candidly, it seems to me that the most difficult political 
obstacle may be winning the consent of the intelligence 
oversight committees. Speaking as an outsider, a member of the 
public, it appears to me that there are turf considerations on 
the part of the Subcommittee, and that just as the ODNI wants 
an exclusive relationship with the intelligence oversight 
committees, the intelligence oversight committees may want that 
very same exclusive relationship.
    So there is a tactical question about how do you gain the 
acquiescence and approval of the intelligence oversight 
committees to what I think is a proposal that would assist 
them, if only they could be persuaded of that.
    Senator Akaka. Mr. Kaiser.
    Mr. Kaiser. May I add a caveat to all of this? In mid-2001, 
the examination by two House Government Reform subcommittees 
looked into computer security programs. They asked GAO to mount 
a preliminary review. The CIA declined to participate, largely 
because the CIA insisted this was a matter of sources and 
methods and could not comply with the GAO or the Subcommittee's 
request. The Subcommittee even invited the CIA to testify in 
executive or secret session. The CIA refused to do so.
    In writing a letter to the Subcommittee explaining why they 
were not participating, the head of the CIA and DCI at the time 
said that they would give this information to the intelligence 
committees, the House Committee on Intelligence, which, as they 
interpreted, had exclusive oversight jurisdiction for sources 
and methods. That does not apply to the Senate side, but that 
was the argument that was being given at the time. And the CIA 
did point out that they had the concurrence or approval of the 
intelligence committee chairman.
    So there is this notion of divided oversight 
responsibilities, jurisdiction, and of sources and methods; 
here it was applied to computer security programs, not 
information that might come from them.
    Senator Akaka. Mr. Marks.
    Mr. Marks. Yes. I would urge the Subcommittee very 
carefully to listen to the arguments made out of the 
Intelligence Community and CIA. The secrecy flag is often 
raised when they do not want to necessarily have something 
examined, and I have always been pleasantly surprised at how 
carefully they read S. Res. 400, which established the Senate 
Select Committee on Intelligence.
    The problem may not come from the DNI office, and the 
problem may not come from the Director of Central Intelligence. 
I think both Mr. McConnell and Mr. Hayden are trying to do 
their best in very difficult jobs. As a friend of mine says, it 
is not them, it is the iron majors underneath of them. It is 
those who have grown up in that system at a lower level who are 
making the recommendations. And those people in many cases 
still are not convinced that oversight is necessary, again, 
based on their predilection towards secrecy. And they 
oftentimes would be willing to hide behind both SSCI and HPSCI, 
thinking, in fact, that they would get a better deal. And that 
is why I think you are seeing some of the information that is 
being sent back.
    Senator Akaka. Thank you. Mr. Walker.
    Mr. Walker. If I can, Mr. Chairman, add a couple of things 
based on these comments.
    First, I have learned in 9\1/2\ years as Comptroller 
General that everybody is for accountability until they are the 
ones being held accountable. I have also learned that when you 
have information that is not classified but somebody says it is 
sensitive, you can substitute the words ``probably 
embarrassing'' for ``sensitive.''
    I think we have a situation here where, as has been noted, 
sources and methods mean different things to different people 
depending upon the circumstances. And I would argue that is 
probably one of the reasons why in our counterpart 
organizations around the world, they have done work and 
provided that work to the intelligence committees in order to 
just eliminate that issue. Whether it is management work or 
whether it is sources and methods work, what is important is 
that it be done and it be done by somebody who is qualified, 
who has the confidence of the Congress and the American people, 
and that it be provided to the appropriate bodies who have the 
ability to do something with it.
    Now, candidly, I believe that the Select Committees on 
Intelligence are part of the problem. There is no question 
about that. I also believe that no matter how caring they are, 
no matter how capable they are, the simple fact is, given the 
growth in the size, complexity, and criticality of this area, 
more needs to be done, and frankly, they do not have the 
expertise in the management areas that we are talking about 
here. So, they do not have the resources, and they do not have 
the expertise, so as a result, we have a gap. That gap needs to 
be filled. It is in the national interest for it to be filled. 
And I think there is a way to bridge these issues. I really do 
believe so.
    Senator Akaka. Are there any further comments? [No 
response.]
    Let me follow up, and on behalf of GAO, looking at this 
from the other side of the coin, would S. 82 adequately protect 
GAO's ability to audit and evaluate elements of the 
Intelligence Community?
    Mr. Walker. First, Mr. Chairman, I think it would, but I 
think we have to reinforce a couple of things. We believe, with 
very limited exceptions, that GAO already has extensive audit 
and evaluation authority over intelligence agencies, including 
the CIA. We absolutely reject the position taken by the CIA and 
selected others, and I think some of the legislative history 
that Dr. Kaiser mentioned helps to serve to reinforce the fact 
that people are trying to reinvent history here with regard to 
what the intention of Congress was at the time that the Select 
Intelligence Committees were created.
    There is an iron triangle here between the Intelligence 
Community and the intelligence committees, and there is a lot 
of movement back and forth among key staff there between the 
communities. They are all very qualified and they are all very 
capable, but they have a limited capacity, obviously, in that 
regard.
    So I think it would, but I want to reinforce the fact that 
you are careful in some regards in your bill to reaffirm 
authority that we already believe we have. And I think it is 
important that nothing be done that could somehow undercut what 
we believe to already be the case, and that is, we have 
authority in most of these areas. We just have not had 
requests, and we have not in some circumstances had 
cooperation.
    Most of the Intelligence Community is not the CIA, and in a 
lot of the Intelligence Community, we have had and we continue 
to have cooperation. So I think it is important that we not 
paint with too broad a brush here. We need to use a laser. 
There are problems with regard to specific entities, but there 
is not a problem necessarily with regard to the whole 
community. And Director McConnell, I believe, is a very capable 
person who hopefully we can work out something with.
    Senator Akaka. Any other comments? [No response.]
    Mr. Walker, the DNI has expressed concerns that GAO review 
of intelligence agencies could compromise intelligence 
information. Over the years, GAO has done significant work 
involving classified information and also has written 
classified reports. I find it a bit troubling that the 
Intelligence Community trusts private contractors with a great 
deal of intelligence information, yet it does not trust GAO to 
safeguard the same information.
    To your knowledge, has classified information provided to 
GAO ever been leaked?
    Mr. Walker. To my knowledge, never in the history of GAO, 
which goes back to 1921, has there been any classified 
information leaked from GAO, and that includes a lot of 
entities other than the Intelligence Community. I find more 
than a little bit of hypocrisy in the position of the 
Intelligence Community on this.
    Senator Akaka. General Walker, do you have any thoughts on 
the particular challenges of evaluating government activities 
where classified information is involved?
    Mr. Walker. Well, Mr. Chairman, we have a number of 
individuals, including myself and many others at different 
levels of the organization, that have top secret clearances and 
also have other ``tickets'' (Sensitive Compartmented 
Information Clearances and related accesses) that would be 
necessary to do a whole range of work. What I would envision is 
that if the Congress did start asking us to do work in this 
area, we would limit that to a relatively small group of 
individuals who had the required clearances and we would want 
to do that as a further safeguard in order to provide 
additional assurance that nothing would be leaked and that it 
was more a need to know within GAO.
    But I think you have to keep in mind it is not just the 
need-to-know concept, it is the right to know. The Congress has 
a right to know as well as a need to know.
    Senator Akaka. Mr. Walker, if GAO increases its work with 
the Intelligence Community, with the intelligence committee, it 
will have to rely on employees with security clearances, as you 
mentioned. Do you currently have enough GAO analysts with high-
level clearances, in particular top secret and SCI, to increase 
GAO's work with the Intelligence Community if that work were no 
longer restricted?
    Mr. Walker. I believe we do, Mr. Chairman, but obviously it 
depends upon how many requests we receive. From a practical 
standpoint, what we are talking about is reallocating existing 
resources, given the current budget environment, rather than 
adding resources. I would be happy to provide for the record, 
if you would like, how many GAO employees we have with top 
secret clearance and how many we have with special SCI.\1\
---------------------------------------------------------------------------
    \1\ The letter dated March 11, 2008 with the response from Mr. 
Walker appears in the Appendix on page 148.
---------------------------------------------------------------------------
    Senator Akaka. I would appreciate that.
    Congress created an Inspector General for the Central 
Intelligence Agency to improve oversight of that agency. Last 
fall, CIA Director Michael Hayden launched a probe into the CIA 
Inspector General's work, and earlier this month, Mr. Hayden 
announced that the CIA was creating an ombudsman to oversee the 
IG's work.
    How concerned should Congress be that the CIA is trying to 
rein in the IG's independence? Or is this more a matter of 
enhancing the IG's accountability? Mr. Ott.
    Mr. Ott. Mr. Chairman, to answer that question fully would 
require a very fine grained knowledge of exactly what is going 
on in the relationship between the DCI and the IG, which I do 
not pretend to have. I will say--and I noted it in my 
testimony--that the current CIA IG's office is a beleaguered 
office. It is continuing to conduct a series of investigations 
and do its business, but at the same time is dealing with this 
probe and these pressures and questions being raised by the 
DCI. And you now have the creation of an ombudsman as a rival 
office of some sort. And it basically just goes back to the 
original proposition that the instrumentalities of oversight 
that are available to deal with this hugely growing, complex 
animal of the Intelligence Community, even those limited 
instrumentalities like the CIA IG are, in fact, under pressure, 
beleaguered, and to some degree probably hobbled.
    Senator Akaka. Mr. Aftergood.
    Mr. Aftergood. As you were describing the creation of the 
ombudsman to review the activities of the Inspector General, I 
was wondering to myself who is going to oversee the ombudsman. 
But without prejudging the facts of that case, I would say two 
quick things.
    The Office of the Inspector General performs a crucial 
function. There is a new report out from the Project on 
Government Oversight this week examining the strengths and 
weaknesses of the Inspector General system, and it needs to be 
bolstered. But it is part of the larger issue confronting this 
Subcommittee and the Congress and addressed in your bill of how 
to strengthen the oversight function.
    If there are currently 50 intelligence staffers in Congress 
overseeing a budget of around $50 billion, that means that, on 
average, each staffer is responsible for $1 billion of 
government activity. And that is just not a reasonable task to 
expect them to perform adequately.
    So we need to strengthen all of the institutions of 
oversight, including the Inspector General, most certainly 
including a GAO role in intelligence.
    Senator Akaka. Thank you. Mr. Kaiser.
    Mr. Kaiser. Yes, if I may add to what has already been 
said. When the CIA Inspector General was created, it was in the 
aftermath of the Iran-contra affair. Congress had already tried 
to bolster the administratively created Inspector General at 
the CIA but found that it was not receiving adequate reports 
and information from that office. Consequently, the new office 
was created in 1989, and, in fact, in a very remarkable 
situation, because the Intelligence Authorization Act was 
already before the Senate on the floor. It was brought back 
into the intelligence committee, and this provision for a new 
Inspector General, a statutory Inspector General in the CIA, 
was added to it; and then the bill was re-released and sent to 
the floor for approval. That tells us how important and how 
conflictual that particular episode was.
    According to a recent press account, the Director of the 
Central Intelligence Agency said that he was looking at the IG 
the way he would at any other management entity. But the 
Inspector General is not the same as any other management 
entity within an organization. Even at the CIA, it is given 
certain statutory protections to prevent it being beleaguered 
and manipulated, if you will.
    The Inspector General also may have his investigations or 
audits prevented by the head of the agency. That applies, as I 
mentioned, to only six other governmental organizations.
    So for the DCIA to say or to insist that the Inspector 
General may have gone off on too independent of an exercise, 
the DCIA has authority to prohibit or intervene in some of 
those investigations.
    Senator Akaka. Mr. Marks.
    Mr. Marks. That has always been a fractious relationship 
for as long as it has been there between the IG and the CIA, 
and particularly on the operations side, which, as someone 
mentioned--I mean, this was set up shortly after Iran-contra, 
and the operations people were rubbed raw, as it was.
    It has been a difficult position but a necessary one, 
certainly the last several IGs who have been there--Britt 
Snider, Fred Hitz, a few others--have taken their share of 
flack. I am troubled by the ombudsman business because I think 
that does send the wrong message. But at the same time, I think 
the IG continues under John Helgerson, who is a long-time CIA 
official at a very senior level and a very bright, independent 
man, to continue to do the kinds of postmortems as well as 
suggested activities that they need to do there. However, 
again, I agree with the panel. I think that appointing an 
ombudsman at this point sends the wrong message altogether.
    Senator Akaka. Thank you.
    The fiscal year 2008 intelligence authorization bill would 
create an Inspector General for the Intelligence Community as a 
whole. I would like to hear your thoughts on how an IC-wide 
Inspector General could enhance oversight of the Intelligence 
Community as well as any potential problems you might see with 
the proposal. Mr. Marks.
    Mr. Marks. Thank you, Senator. Well, on the positive side 
of it, the DNI office has grown so large now and is dealing 
with such complex issues that it probably would not--it would 
certainly be helpful to have an Inspector General there to 
begin to look at some of the sub-processes going on there. 
Certainly an Inspector General at that level could also look at 
some of the interactions between the agencies and the DNI. I do 
not think it is any secret at this point that many of the 
agencies in the Intelligence Community have been greeted by the 
DNI like a third cousin coming from out of town to borrow 
money. They are unhappy with their presence there. It has, I 
think, conflicted to some extent with what the 2004 bill was in 
terms of creating that DNI, and probably having an Inspector 
General at this point, I think, would certainly help ease that 
process. It might also help as an interesting liaison to GAO as 
they begin their processes within the community as well.
    Senator Akaka. Mr. Walker.
    Mr. Walker. Mr. Chairman, I have mixed thoughts about it. 
First, I think the government has too many IGs. We have about 
60 of them. Some of them are presidentially appointed, about 
half. About half are appointed by the agency head, and can be 
removed by the agency head. Some have hundreds of people at 
their disposal, that is, professionals at their disposal. Some 
have themselves and maybe one or two staff.
    So I think one of the things that has to happen in this 
year, which is the 30th anniversary of the IG Act, is that 
Congress needs to relook at the IG community in particular and 
the accountability community as well, which includes GAO, to 
try to make sure that there is adequate coverage while avoiding 
duplication of effort, trying to create more critical mass, 
more flexibility, more synergies, and more accountability.
    That being said, as has been said before, the CIA is the 
only agency within the Intelligence Community that has its 
sole, dedicated Inspector General. The DOD IG covers a lot of 
others, but they, frankly, have got a fair amount of work to do 
there. And so, I think you have to think about what do you do 
with regard to other ones that exist. It is one thing to say 
that you are going to have an Inspector General for the 
Intelligence Community and that that person is going to report 
to the Congress and maybe to the DNI, dual reporting, which the 
residentially appointed Inspectors General do. But then what is 
that going to do for the CIA Inspector General? And what is the 
impact going to be on the DOD IG in order to prevent 
duplication of effort and in order to create better clarity as 
to who is responsible for what?
    So I think it has some conceptual merit, but I think we 
have to put it in the context of, if you have more capacity 
here with an IG, what is that going to do on a micro basis to 
try to make sure you do not have duplication of effort within 
that community. And, second, I think we need to take a whole 
look at the IG Act and rationalize the overall structure and 
its relationship with GAO after 30 years.
    Senator Akaka. Mr. Aftergood.
    Mr. Aftergood. I would concur with that and just say that 
not all IGs are created equal, and that if there is to be an 
IC-wide IG, it is important that that office reflect the best 
practices in government and not the least effective. So the key 
touchstones really are the independence of the office, as 
written into statute; the resources that it has; and the 
personnel, the quality of the personnel working in the office. 
With the right people, the right resources, and the right 
statute, it can be a tremendous addition. Without them, it can 
be insignificant or perhaps even counterproductive.
    Senator Akaka. Mr. Ott.
    Mr. Ott. Mr. Chairman, maybe just one point in this regard, 
and I am keying on Mr. Walker's comments. Oversight works and 
it works effectively when various criteria are met, and one of 
those criteria is a perception among the overseen, in the 
Intelligence Community in this case, that the process is 
efficient, that the lines of authority and responsibility are 
clear, that you are not duplicating effort, you are not being 
asked to keep repeating the same thing to different people, 
reinventing the wheel, dealing with conflictual authorities. 
You want the process streamlined in every respect, including on 
the congressional end, in terms of oversight authority. Do you 
have multiple masters or is there a fairly limited demarcated 
set of folks that you are responding to?
    I just raise that because it is important in gaining the 
cooperation and support of the community itself, which is vital 
to making oversight work well.
    So I would encourage the Subcommittee, to keep this in mind 
as you address all these issues. Oversight is a good thing, but 
oversight just willy-nilly in all sort of guises and 
incarnations is not necessarily a good thing. It needs to be 
efficient and streamlined.
    Senator Akaka. Thank you. Well, thank you for those 
responses.
    Mr. Walker, notwithstanding DNI's reluctance to work with 
GAO, has DNI publicly identified any specific management issues 
that the community is having a challenging time working 
through?
    Mr. Walker. There are several issues that I know we have 
had conversations about. One in particular is human capital 
reform. Any organization is only as good as its people. That is 
clearly true in the Intelligence Community because, by 
definition, you are talking about intellectual property, 
intellectual capital, if you will. And so that is an area where 
they are engaging in a number of reforms, and, frankly, we have 
had some informal communications with the DNI's office on those 
issues. And I have seen some hopeful signs that we may actually 
be requested to do some work in that area because I think most 
people view the GAO as the clear leader in this area in 
government. And while we are not perfect, never will be, we are 
clearly the leader in this area.
    There are other areas that I do not know that the DNI has 
personally been engaged in or spoken publicly about, but that 
clearly, I think, should be areas of priority consideration in 
addition to human capital: Acquisition and contracting, 
information sharing, and potentially security clearances. All 
these are on our high-risk list. That is the common 
denominator. And I think, importantly, while a lot of people do 
not like oversight, I think sometimes people misconstrue GAO's 
role because we really try to employ a constructive engagement 
approach. It is in all of our interest for everybody to be 
successful, and so a lot of what we do is we try to bring best 
practices, make the entities aware of best practices based on 
our collective experience, as well as lessons learned, to 
increase the likelihood that they will actually be successful. 
And I think that is what sometimes gets missed. GAO did not 
always have that reputation, but I think we do have that 
reputation now, and I fully expect that it is likely to be 
maintained.
    Senator Akaka. Thank you.
    As Mr. Aftergood testified, ODNI has estimated that 70 
percent of the Intelligence Community budget is spent on 
commercial contracts. That really is an astonishing statistic. 
Do any of you have insight into how IC contract management 
oversight is working, both in terms of the Intelligence 
Community's oversight of contractors as well as congressional 
oversight? Mr. Marks.
    Mr. Marks. At the risk of my business, I think one of the 
challenges for them right now is simply volume. The number of 
people involved with this process remains somewhat limited, 
certainly versus the Defense Department, who has had much 
greater experience over the years in terms of dealing with 
contractors. And we have seen some of the challenges that have 
come out of that as well. The creation of the DNI has added 
another strain on that process. We have certainly--in my own 
experience, I have certainly been well treated by those people. 
They have certainly gone out of their way to attempt to help, 
but they are oftentimes simply overwhelmed by the volume and, 
frankly, you have many young people in there who they are 
attempting to train up at this point. So while there are 
inefficiencies and you sort of hope they are gaining something 
on that as you are dealing with the tremendous volume of 
contracts now and the very large size and the billions of 
dollars of these contracts, the idea of having someone who can 
look over their shoulder such as the GAO and give them 
instruction on acquisition and give them instruction on the 
most effective best-practice ways of dealing with contracts I 
think would be greatly appreciated.
    Senator Akaka. Mr. Ott.
    Mr. Ott. If I can just refer to one case that I note in my 
testimony, in 2001 the National Security Agency, with 
considerable fanfare for a secretive agency, announced a 
program called ``Trailblazer'' that was to have three prime 
contractors, very large ones, and some 30 industrial partners 
and a budget that ultimately well exceeded $1 billion. 
``Trailblazer'' went on for a number of years and was designed 
to provide a transformation of NSA capabilities to cope with 
the modern information technology world.
    Ultimately, it was a debacle, and then-Director Hayden 
ended up testifying that--it turned out that the new 
technologies were unmanageable--they were not working. NSA 
never fully understood what it was getting into. It ended up 
much like the infamous computer programs at the FBI, and 
ultimately the plug was pulled and defeat was declared.
    The point for our purposes is that in this whole episode, 
there was no real effective oversight. The kind of capabilities 
that a GAO might have brought to that process as it was ongoing 
just simply did not happen.
    So there are lots of examples like that, big examples, that 
argue the point that something else needs to be put in place 
here.
    Senator Akaka. Mr. Aftergood.
    Mr. Aftergood. This is not entirely a new problem. The 
National Reconnaissance Office, which builds spy satellites, 
has never actually built the spy satellites. It is always the 
contractors to the NRO that have built them for the last 40-
plus years. But what is new is the explosion in contracting 
activity with just an enormous growth in spending and in number 
of contracts and in contracting on core intelligence functions, 
including analysis and collection. And the existing oversight 
system, it seems to me, is not well equipped to deal with that. 
The intelligence agencies answer to Congress, but the 
intelligence contractors do not. They answer to their customer, 
which is the intelligence agency who hired them. And so, in 
effect, the business of intelligence has been taken at least 
one step away from the oversight of Congress, and in some way, 
something needs to be done to rectify that. I think GAO 
provides an obvious if partial solution to that problem.
    Senator Akaka. Mr. Kaiser.
    Mr. Kaiser. Yes. To add to the complexity of auditing, 
overseeing, and evaluating the private contract operations is 
the notion that many of these contracts are bundled. I do not 
know if that is true in the Intelligence Community as it is 
elsewhere. But that means there are a number of separate 
private firms that are operating within, under a certain 
contract. That means further decentralization and difficulty in 
actually identifying or pinpointing who is responsible for what 
part of the contract. If down the line something does go wrong, 
there is a lot of finger pointing, and it is very difficult 
then to identify who is actually in charge of the whole 
operation or even a part of it.
    Senator Akaka. Well, let me ask Mr. Walker, as Mr. 
Aftergood testified, the intelligence components in the 
Department of Defense traditionally have not been as resistant 
as the CIA to cooperating with GAO. I understand that GAO even 
had an office at the NSA. Your testimony discusses some work 
related to elements of the Intelligence Community in the DOD. 
In general, do you still receive good cooperation from DOD 
components? Or has that changed as the IC has become somewhat 
more integrated under the DNI in recent years?
    Mr. Walker. We receive much better cooperation and 
generally good cooperation from the components dealing with the 
Department of Defense, at least most of them. We still actually 
do have space at the NSA. We just don't use it. And the reason 
we don't use it is we are not getting any requests. So I do not 
want to have people sitting out there twiddling their thumbs.
    Senator Akaka. Thank you.
    Mr. Walker, the Intelligence Community at times uses 
private contractors for outside reviews or auditing of IC 
programs or activities. You have served extensively in both 
government and the private sector reviewing and auditing 
Executive Branch activities and programs. Do you have any 
thoughts on the limitations or benefits of having private 
contractors review Intelligence Community activities?
    Mr. Walker. Well, Mr. Chairman, I think another area that 
is in desperate need of a review by the Congress is what has 
happened with regard to the proliferation of the use of 
contractors in government. It has grown dramatically. We are 
using contractors in many ways that we never did historically. 
A lot of times, if you go to a meeting at a particular 
department or agency, you have no idea who a contractor is and 
who a civil servant is. You really do not know.
    I think that there are certain functions and activities 
that should never be contracted out, and we need to have 
another discussion about that. But even if you do decide to 
contract out, I think there are plenty of things that should be 
contracted out. You need to have an adequate number of civil 
servants to be able to oversee cost, quality, and performance. 
And if you do not, you are going to get in trouble. And with 
the proliferation of service contracts in particular, there is 
also the additional challenge of not being able to provide 
enough specificity with regard to what those service 
contractors should be doing, which, in effect, gives them a 
quasi-blank check to do a number of things that may not be 
cost-effective for the American taxpayer.
    Senator Akaka. Professor Ott and Mr. Marks, you both also 
have worked as Senate staff on intelligence matters. The DNI is 
preparing to undertake a series of management reforms to its 
personnel systems: Contracting practices, financial systems, 
and business practices, among other proposals. What is your 
view on what type of expertise is needed by congressional staff 
to assess the Intelligence Community's performance on core 
management issues? For example, in your experience, how many 
auditors or accountants would be sufficient to perform the 
auditing function? Mr. Ott.
    Mr. Ott. The kind of review of management practices that 
you are referring to, I think it is fair to say, have never 
been adequately overseen by the intelligence committees. You 
are really talking about a kind of GAO type of expertise, and 
to my knowledge--and I will not pretend to be completely 
knowledgeable on the current set of circumstances--the 
oversight committees have never had that kind of specialized 
expertise.
    I will also say parenthetically, to use the metaphor, in 
the 1990s, Humpty Dumpty fell off the wall and was shattered 
into a very large number of pieces, and it will be a very 
difficult and very long-term business to try to put all those 
pieces back together again, if, in fact, it can be done at all.
    So just simply reconstituting what the Subcommittee once 
did is going to be a very difficult enterprise. And then to add 
to it a capability to oversee these kinds of management 
practices that the Subcommittee has really never done in the 
past will be adding additional difficulty on top of difficulty.
    You can detect a skepticism in my voice. I will just note 
finally that in my direct experience the Senate Subcommittee 
did in the 1980s, when, as I say, it functioned effectively, 
had an audit staff, and it was called that. It consisted, as I 
recall of basically three people. Basically what they did was 
look at very large budget items, primarily overhead systems, 
and got into questions of weighing various alternative 
strategies for constructing and satellite systems. And there 
were some very high-level, very informed engagements between 
that staff and the Intelligence Community at the time. I would 
argue one of the high points of legislative history, frankly, 
was the quality of debate that went on between that small 
staff--and I was not part of it--and the leadership of the 
Intelligence Community with regard to how to use billions of 
dollars for overhead systems. But that was not the sort of 
thing you are describing. That was not getting down into 
management practices, personnel, knowledge management, 
contracting, that sort of thing. That was big-ticket 
strategies. And that worked because that staff was world class. 
It was not big. It was very small. But the people on it, and 
particularly the leadership of it, was absolutely first rate. 
It was almost a unique thing. And it is very hard to imagine it 
being reconstituted, at least in the current environment, to do 
the kind of job you are talking about.
    Senator Akaka. Mr. Marks.
    Mr. Marks. This, Senator, is the kind of red meat that 
McKinsey and Booz Allen and others make a lot of money out of. 
But the problem, again, on this is to develop, as Marvin was 
saying, an internal expertise, people who understand the 
community, but at the same time understand these problems. And 
that is a difficult thing to do. We had a fortunate period of 
time and a relatively smaller community where people could 
concentrate on larger contracts and do that, and Marvin and I 
were acquainted with that audit staff, and they did a very good 
job. I am not so sure you can re-create that now. Certainly 
given the depth, you can just run the list--and Mr. Walker down 
at the end of the table has run this long list of management 
challenges at this point, ranging from workforce planning to 
information technology to secrecy and compartmentation. And I 
think, again, whether I am putting too much of a burden on GAO 
at this point, these are the kinds of people that you need to 
have who are going to be there on a longer-term basis and can 
really engage in a long-term dialogue on this, which I do not 
think you are going to get from a contractor, and you are 
certainly not going to be able to get from oversight committees 
that are already overburdened at this point.
    Let me also add another personal note, and this was an 
earlier comment that was made with regards to contractors 
within the community themselves. I can remember when this 
contracting business really began in terms of a much larger 
scale. Obviously, it was precipitated by 2001 and trying to buy 
quick expertise. The logic, however, was always one in which 
you supposedly got--the government got something cheaper in the 
sense of you are able to buy the expertise, but you did not 
have to pay for the pension, you did not have to pay for the 
insurance and all the rest of it, ignoring the profit the 
companies were making on top and still thinking you were making 
out in the long term. I think the term ``human capital'' has 
been used here before today, and I think one of the things the 
government has cheated themselves out of and to some extent 
cheated the taxpayer out of is that they may be saving some 
dollars, and I think there is still some debate as to how much 
they are saving, but certainly in terms of having the cadre of 
individuals who can deal with these kinds of issues within the 
government, I think we have cheated ourselves very badly. And 
maybe one or two of the places, one or two of the centers of 
expertise certainly remains in GAO, and I think it is one place 
that we can go back to fairly quickly to get some oversight on 
this.
    Senator Akaka. Thank you.
    Mr. Walker, as I noted in my opening remarks, in response 
to a question for the record from Senator Voinovich from a 
November 2005 hearing of this Subcommittee, GAO stated that it 
lacked the cooperation needed to ensure progress on the 
security clearance process. As you know, DNI may assume more 
responsibility for security clearances in the future.
    Given this situation, what specifically would GAO need from 
Congress and the Intelligence Community to continue making 
progress on this particular issue?
    Mr. Walker. Well, I think your bill, Senator, reaffirms 
certain authorities that GAO believes it already has, and I 
believe it also specifically may reference--if not in the 
statutory language, the contemplated, legislative history--the 
issue of security clearances.
    Let me restate. I have had a constructive working 
relationship with Director McConnell, and I think he is a very 
reasoned and reasonable person. He has a tough enough job in 
trying to do his job with regard to the 16 different entities 
in the Intelligence Community. And they do not all have the 
same attitude.
    The biggest problem that we have had on a recurring basis 
over many years has been the CIA, and not just with regard to 
whether and to what extent we would do work there, but in their 
historical unwillingness to cooperate on government-wide 
initiatives, even in circumstances where other members of the 
Intelligence Community did. And so I think we need to be 
precise about where the problem is and where it is not, and I 
do think that part of the problem is up here on Capitol Hill. I 
think the intelligence committees have still not come to the 
realization yet that no matter what their authorities are, no 
matter how capable their staff are, this is just an area that 
they are not going to be able to perform effectively, and GAO 
is the logical place to go, and it really, frankly, would not 
make sense to go anywhere else.
    Senator Akaka. Further, Mr. Walker, what do you think might 
be the result or what do you think might happen if GAO is 
unable to audit the security clearance process in the future?
    Mr. Walker. Well, it is already high risk. It would become 
higher risk, I can assure you.
    Senator Akaka. Mr. Walker, the DNI is trying to move 
forward with a new personnel system to unify the Intelligence 
Community. This, of course, is a lofty goal as practically each 
element of the IC has been granted different personnel 
flexibilities and has implemented the use of these 
flexibilities in an uneven manner.
    To date, have you provided any feedback to ODNI as it 
designs and prepares to implement the new personnel system? If 
not, would you speak a little bit more on how you could be 
helpful to the DNI in this area?
    Mr. Walker. Well, Ron Sanders is the chief human capital 
officer for the ODNI. I have known Mr. Sanders for a number of 
years. He is a very capable professional. There have been some 
informal conversations that have taken place with regard to 
what they are trying to do. I know that they have reached out 
to us at GAO to learn from our own experience and to draw upon 
some best practices.
    This is an area where I think we could add a lot of value. 
We have not received a formal request to look at what they have 
put together. But this is an example of an area where there has 
been some informal interaction and knowledge sharing, but it is 
an area where I think we could add value not just to the 
Congress but to the DNI.
    Senator Akaka. Professor Ott and Mr. Marks, you both also 
have served in the Intelligence Community working with the CIA. 
In your experience, how is our national security affected if 
there is inadequate oversight of the Intelligence Community? 
Mr. Ott.
    Mr. Ott. All right. I will venture out on thin ice here and 
make what is inherently maybe a tendentious assertion, but I 
will make it anyway because I believe it.
    When you pose a question like this it calls to mind the 
events of September 11, 2001, and the whole postmortem that was 
done on that by the 9/11 Commission and the connecting of the 
dots and the location of bits and pieces of information in 
various parts of the security community and the Intelligence 
Community in particular and the failure to bring those together 
and all of that--the story that we are all very familiar with.
    My argument is that if intelligence oversight by the 
Congress had been functioning in the 1990s and the years 
immediately up to 2001 the way it had functioned in the 1980s, 
I believe that, in fact, September 11, 2001 would have been 
prevented. And the reason is that an effective oversight 
system, as existed in the SSCI at the time, would have reacted 
to the 1993 truck bomb in the World Trade Center--and then the 
subsequent embassy bombings in East Africa--by saying we are 
now confronting something new, important, and dangerous. We are 
going to have to dedicate two or three of our professional 
staff to work this issue full-time. And if that had been done--
and I think it would have been done by a 1980s-era committee. 
If that had been done, you would then have had people from the 
committee ranging across the Intelligence Community, kicking 
the tires, asking questions: What are you doing? What are the 
programs? What do you know? And it is inherent in the nature of 
oversight that a staff doing that can bridge the stovepipes 
that compartmentalize information and can say, well, I was out 
at the FBI last week, and they told me this. Have you heard 
that? Well, no, we have not heard that.
    That is the process of correcting disparate, proprietary 
information which a Senate staff can do in the nature of 
things, actually very easily, but the community often cannot 
do. Not only that, you get the problem of orthodox thinking: 
Terrorists will never use airplanes, civilian airplanes. Who 
says? Well, we came to that conclusion somewhere a long time 
ago, and it is now sort of set in stone.
    Well, Senate staff is not beholden to or captured by 
bureaucratic orthodoxies. They might react with skepticism. 
Well, wait a minute. Why do you think that? I was talking to 
somebody in the civil aviation world who thinks quite 
differently about that. This is a service that oversight 
performs if it is done well, and it helps the bureaucracy 
itself bridge gaps, get outside of compartments, think outside 
the box, rethink conventional wisdom, and it is an absolutely--
in the kind of world that we face today, I think it is 
absolutely critical.
    Senator Akaka. Mr. Marks.
    Mr. Marks. I will take a slight variation on the theme, 
Senator, and I will take 2001 as the example because that is 
probably the best of the lot, at least for right now--maybe 
Iraq judgments.
    September 11, 2001, was a structural intelligence failure. 
We had a system that was built to do something else, to take on 
a very slow-moving, steady, Western-oriented Nation State, the 
U.S.S.R., very predictable, perhaps harder to penetrate but 
very predictable--hard to penetrate but very predictable. We 
had structures in place that separated international and 
domestic information. We had long-term laws in place that had 
placed some restrictions on a number of different agencies 
talking to each other. And Marvin is absolutely right. You also 
had cultures that had developed over the years that really were 
not dealing with each other.
    What you would hope for out of any oversight--and I can 
certainly see Marvin's point in terms of both the Senate and 
the House Intelligence Committees. But what you would hope for 
in any kind of oversight is the ability to look long term, the 
ability to look over the horizon in the sense of trying to get 
a handle on what is the next set of problems here. In a lot of 
ways, the Intelligence Community stopped somewhere around 
December 25, 1991, when the Soviet Union fell, and maintained a 
lot of the same structures throughout. And obviously there were 
cutbacks, etc., and that is all history now. But there are a 
number of us out there who really believed that there had to be 
an outside group that was saying to them, look, the situation 
has changed. People certainly were smart enough to realize it 
inside, but oftentimes they cannot move within their own 
bureaucracy to get things done. A good oversight committee--and 
again this is all hindsight, but good oversight of one form or 
another would have sent out the warning at this point. We are 
dealing in a different world now, the old joke being that the 
best thing that could happen to us is that al-Qaeda would have 
an international and a domestic desk, that they would not have 
connection. But they do. And the idea that these technologies 
that were developing in the 1990s that really were not taken 
into account, whether it is the ability to get on the Internet, 
whether it is the ability to make simply international phone 
calls and communicate that way, really weren't taken into 
account within the community.
    So, fundamentally, I think I agree with Dr. Ott on this, 
but at the same time, I do not know how much of that burden 
could have been taken on by the intelligence committees, given 
structure and, frankly, given the day-to-day issues that they 
have to deal with.
    Senator Akaka. Well, I want to thank all of you again for 
the time that you spent preparing as well as presenting this 
valuable information to this Subcommittee. This Subcommittee 
has been very fortunate. I hear all of you clearly, and your 
thoughts.
    Today's hearing for me has been a highlight on the need to 
improve oversight of the Intelligence Community, particularly 
as it prepares to implement a host of government-wide 
management reforms. It is clear to me that GAO, which has the 
expertise and capacity to do cross-cutting audits and 
evaluations of IC activities could provide valuable assistance 
to this effort. GAO's feedback would help Congress understand 
whether the Intelligence Community programs that it authorizes 
and funds are working properly. But, more importantly, GAO 
could help the IC work better.
    We should remember that the goal of oversight is not to 
point fingers at the Intelligence Community or to make 
newspaper headlines. Rather, the goal is to help the 
Intelligence Community function as effectively as possible to 
keep the American people safe.
    With that goal in mind, this Subcommittee will continue its 
attention to this important issue, and you have provided us 
with valuable insights and information to help us do that.
    The hearing record will be open for 2 weeks for additional 
comments or questions or statements other Members may have, and 
with that, this hearing is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 41454.000

1[GRAPHIC] [TIFF OMITTED] 41454.000

2[GRAPHIC] [TIFF OMITTED] 41454.000

3[GRAPHIC] [TIFF OMITTED] 41454.000

4[GRAPHIC] [TIFF OMITTED] 41454.000

5[GRAPHIC] [TIFF OMITTED] 41454.000

6[GRAPHIC] [TIFF OMITTED] 41454.000

7[GRAPHIC] [TIFF OMITTED] 41454.000

8[GRAPHIC] [TIFF OMITTED] 41454.000

9[GRAPHIC] [TIFF OMITTED] 41454.001

0[GRAPHIC] [TIFF OMITTED] 41454.001

1[GRAPHIC] [TIFF OMITTED] 41454.001

2[GRAPHIC] [TIFF OMITTED] 41454.001

3[GRAPHIC] [TIFF OMITTED] 41454.001

4[GRAPHIC] [TIFF OMITTED] 41454.001

5[GRAPHIC] [TIFF OMITTED] 41454.001

6[GRAPHIC] [TIFF OMITTED] 41454.001

7[GRAPHIC] [TIFF OMITTED] 41454.001

8[GRAPHIC] [TIFF OMITTED] 41454.001

9[GRAPHIC] [TIFF OMITTED] 41454.002

0[GRAPHIC] [TIFF OMITTED] 41454.002

1[GRAPHIC] [TIFF OMITTED] 41454.002

2[GRAPHIC] [TIFF OMITTED] 41454.002

3[GRAPHIC] [TIFF OMITTED] 41454.002

4[GRAPHIC] [TIFF OMITTED] 41454.002

5[GRAPHIC] [TIFF OMITTED] 41454.002

6[GRAPHIC] [TIFF OMITTED] 41454.002

7[GRAPHIC] [TIFF OMITTED] 41454.002

8[GRAPHIC] [TIFF OMITTED] 41454.002

9[GRAPHIC] [TIFF OMITTED] 41454.003

0[GRAPHIC] [TIFF OMITTED] 41454.003

1[GRAPHIC] [TIFF OMITTED] 41454.003

2[GRAPHIC] [TIFF OMITTED] 41454.003

3[GRAPHIC] [TIFF OMITTED] 41454.003

4[GRAPHIC] [TIFF OMITTED] 41454.003

5[GRAPHIC] [TIFF OMITTED] 41454.003

6[GRAPHIC] [TIFF OMITTED] 41454.003

7[GRAPHIC] [TIFF OMITTED] 41454.003

8[GRAPHIC] [TIFF OMITTED] 41454.003

9[GRAPHIC] [TIFF OMITTED] 41454.004

0[GRAPHIC] [TIFF OMITTED] 41454.004

1[GRAPHIC] [TIFF OMITTED] 41454.004

2[GRAPHIC] [TIFF OMITTED] 41454.004

3[GRAPHIC] [TIFF OMITTED] 41454.004

4[GRAPHIC] [TIFF OMITTED] 41454.004

5[GRAPHIC] [TIFF OMITTED] 41454.004

6[GRAPHIC] [TIFF OMITTED] 41454.004

7[GRAPHIC] [TIFF OMITTED] 41454.004

8[GRAPHIC] [TIFF OMITTED] 41454.004

9[GRAPHIC] [TIFF OMITTED] 41454.005

0[GRAPHIC] [TIFF OMITTED] 41454.005

1[GRAPHIC] [TIFF OMITTED] 41454.005

2[GRAPHIC] [TIFF OMITTED] 41454.005

3[GRAPHIC] [TIFF OMITTED] 41454.005

4[GRAPHIC] [TIFF OMITTED] 41454.005

5[GRAPHIC] [TIFF OMITTED] 41454.005

6[GRAPHIC] [TIFF OMITTED] 41454.005

7[GRAPHIC] [TIFF OMITTED] 41454.005

8[GRAPHIC] [TIFF OMITTED] 41454.005

9[GRAPHIC] [TIFF OMITTED] 41454.006

0[GRAPHIC] [TIFF OMITTED] 41454.006

1[GRAPHIC] [TIFF OMITTED] 41454.006

2[GRAPHIC] [TIFF OMITTED] 41454.006

3[GRAPHIC] [TIFF OMITTED] 41454.006

4[GRAPHIC] [TIFF OMITTED] 41454.006

5[GRAPHIC] [TIFF OMITTED] 41454.006

6[GRAPHIC] [TIFF OMITTED] 41454.006

7[GRAPHIC] [TIFF OMITTED] 41454.006

8[GRAPHIC] [TIFF OMITTED] 41454.006

9[GRAPHIC] [TIFF OMITTED] 41454.007

0[GRAPHIC] [TIFF OMITTED] 41454.007

1[GRAPHIC] [TIFF OMITTED] 41454.007

2[GRAPHIC] [TIFF OMITTED] 41454.007

3[GRAPHIC] [TIFF OMITTED] 41454.007

4[GRAPHIC] [TIFF OMITTED] 41454.007

5[GRAPHIC] [TIFF OMITTED] 41454.007

6[GRAPHIC] [TIFF OMITTED] 41454.007

7[GRAPHIC] [TIFF OMITTED] 41454.007

8[GRAPHIC] [TIFF OMITTED] 41454.007

9[GRAPHIC] [TIFF OMITTED] 41454.008

0[GRAPHIC] [TIFF OMITTED] 41454.008

1[GRAPHIC] [TIFF OMITTED] 41454.008

2[GRAPHIC] [TIFF OMITTED] 41454.008

3[GRAPHIC] [TIFF OMITTED] 41454.008

4[GRAPHIC] [TIFF OMITTED] 41454.008

5[GRAPHIC] [TIFF OMITTED] 41454.008

6[GRAPHIC] [TIFF OMITTED] 41454.008

7[GRAPHIC] [TIFF OMITTED] 41454.008

8[GRAPHIC] [TIFF OMITTED] 41454.008

9[GRAPHIC] [TIFF OMITTED] 41454.009

0[GRAPHIC] [TIFF OMITTED] 41454.009

1[GRAPHIC] [TIFF OMITTED] 41454.009

2[GRAPHIC] [TIFF OMITTED] 41454.009

3[GRAPHIC] [TIFF OMITTED] 41454.009

4[GRAPHIC] [TIFF OMITTED] 41454.009

5[GRAPHIC] [TIFF OMITTED] 41454.009

6[GRAPHIC] [TIFF OMITTED] 41454.009

7[GRAPHIC] [TIFF OMITTED] 41454.009

8[GRAPHIC] [TIFF OMITTED] 41454.009

9[GRAPHIC] [TIFF OMITTED] 41454.010

0[GRAPHIC] [TIFF OMITTED] 41454.010

1[GRAPHIC] [TIFF OMITTED] 41454.010

2[GRAPHIC] [TIFF OMITTED] 41454.010

3[GRAPHIC] [TIFF OMITTED] 41454.010

4[GRAPHIC] [TIFF OMITTED] 41454.010

5[GRAPHIC] [TIFF OMITTED] 41454.010

6[GRAPHIC] [TIFF OMITTED] 41454.010

7[GRAPHIC] [TIFF OMITTED] 41454.010

8[GRAPHIC] [TIFF OMITTED] 41454.010

9[GRAPHIC] [TIFF OMITTED] 41454.011

0[GRAPHIC] [TIFF OMITTED] 41454.011

1[GRAPHIC] [TIFF OMITTED] 41454.011

2[GRAPHIC] [TIFF OMITTED] 41454.011

3[GRAPHIC] [TIFF OMITTED] 41454.011

4[GRAPHIC] [TIFF OMITTED] 41454.011

5[GRAPHIC] [TIFF OMITTED] 41454.011

6[GRAPHIC] [TIFF OMITTED] 41454.011

7[GRAPHIC] [TIFF OMITTED] 41454.011

8[GRAPHIC] [TIFF OMITTED] 41454.011

9[GRAPHIC] [TIFF OMITTED] 41454.012

0[GRAPHIC] [TIFF OMITTED] 41454.121

[GRAPHIC] [TIFF OMITTED] 41454.122

[GRAPHIC] [TIFF OMITTED] 41454.123

                                 <all>

</pre></body></html>
